                                      TVA RESTRICTED INFORMATION




Memorandum from the Office of the Inspector General



October 17, 2013

Charles G. Pardee, WT 7B-K

REQUEST FOR FINAL ACTION – EVALUATION 2012-14587 – REVIEW OF TVA’S
NUCLEAR POWER GROUP AND COAL & GAS OPERATIONS CRITICAL SPARE
PARTS PROGRAMS



The Tennessee Valley Authority (TVA) has identified asset performance and operations
as a major risk for the agency. Without effective management of critical spare parts, TVA
could face equipment failure which could result in safety and generating failures. This
review was initiated to determine if the Nuclear Power Group (NPG) and Coal & Gas
Operations (C&GO) are effectively managing critical spare parts.

Our review found that critical spare parts could be managed more effectively. We found
there were inconsistencies in TVA’s management of its critical spare parts related to
(1) procedures governing critical spare parts, (2) preventive maintenance (PM)1 performed
on parts in the store rooms, and (3) accuracy of information maintained on critical spare
parts. We also found that the lack of critical spare parts has negatively affected system
and/or component health. We noted that TVA has taken steps to improve the identification
of critical spare parts but has not followed through with implementing all of the changes.
Additionally, our physical inventory counts at the plants were consistent with the
information contained in Maximo.2

We recommend the Executive Vice President and Chief Generation Officer, Generation,
(1) develop C&GO procedures to govern the identification and procurement of critical
spare parts; (2) ensure proper maintenance is performed on spare parts; (3) take steps to
follow-up on actions recommended by MCR Performance Solutions;3 (4) work with
Engineering Environmental & Support Services to implement controls over the information
maintained in Maximo, including who can identify what are critical spare parts; and
(5) work with Supply Chain to accurately update Maximo to reflect what items should be
listed as critical spare parts.

TVA management agreed with our findings and recommendations. See the Appendices
for TVA’s complete response.

1
    PM is predictive, repetitive, and planned maintenance actions taken to maintain a piece of equipment and
    extend its life.
2
    Maximo is the TVA system of record for asset and location information.
3
    MCR is a management consulting firm focused exclusively on the utilities industry.
      WARNING: ThIs document is FOR OFFICIAL USE ONLY. It is to be controlled, stored, handled, transmitted,
       distributed, and disposed of in accordance with TVA policy relating to Information Security. This information
               is not to be further distributed without prior approval of the Inspector General or his designee.

                                      TVA RESTRICTED INFORMATION
Charles G. Pardee
Page 2
October 17, 2013



BACKGROUND

Asset Performance and Operations was one of the 19 risks identified on the TVA Risk
Scorecard for the 2nd quarter of fiscal year 2012. Fossil Power Group–Coal, Fossil Power
Group–Gas, and NPG each identified at least one risk that related to asset vulnerability or
equipment reliability.4 Each group identified the utilization of critical spare parts as a way
to mitigate the risks associated with the vulnerabilities of the assets.

A critical spare part can be defined as an item that is unique to the asset it supports,
whose absence would cause a significant loss of asset service availability or a significant
negative impact on safety, the environment, or meeting regulatory requirements; is rarely
used; and can have a long lead time for replenishment. The lack of these parts could
contribute to safety risks and inefficiencies if the piece of equipment they were needed for
failed.

According to NPG-Standard Programs and Processes (SPP)-09.18.10, Critical Spares
Program, the program should identify critical components requiring spares; determine the
right number of spare parts to maintain in stock; and request authorization for their
procurement. The process should (1) identify critical components requiring spare
replacement parts to mitigate critical component failure and (2) ensure analysis is
performed to evaluate alternative solutions to critical spare issues. This process also
ensures rigorous analysis is performed to evaluate alternative solutions to critical spare
issues. Examples of alternative solutions are whether one spare, two spares, or even no
spare is needed. According to NPG-SPP-09.18.10, an evaluation process should be
conducted on all critical components whose failure would result in a reduction of safety or
loss of generating capacity.

OBJECTIVE, SCOPE, AND METHODOLOGY

TVA has identified asset performance and operations as a major risk area. Without
effective management of critical spare parts, TVA could face equipment failure which
could result in safety and generating failures. The objective of our review was to
determine if NPG and C&GO are effectively managing critical spare parts. The scope of
our review was limited to NPG and C&GO critical spare parts programs. We judgmentally
selected seven coal, gas, and nuclear plants including Allen Fossil Plant, Gallatin Fossil
Plant, Bull Run Fossil Plant, Allen Combustion Turbine (CT) Plant, Caledonia Combined
Cycle Plant, Gallatin CT Plant, and Watts Bar Nuclear Plant to perform plant visits and
testing.

To achieve our objective, we:

   Reviewed documentation and interviewed TVA personnel from various organizations
    to identify processes for managing critical spare parts.
   Interviewed plant personnel to obtain information concerning the plants’ management
    of critical spare parts, including how each plant identifies, tracks, and maintains its
    parts.

4
    Fossil Power Group was subsequently changed to C&GO.
                                TVA RESTRICTED INFORMATION
Charles G. Pardee
Page 3
October 17, 2013



   Selected a random sample of critical spare parts at each plant and performed a
    physical inventory to determine if the items listed in Maximo as critical spare parts
    were stored in the plants’ store room.
   Obtained documentation to verify that PM was being performed on the critical spare
    parts. We did not ascertain the extensiveness of the PM performed.
   Reviewed random samples of both Nuclear and Coal System and Component Health
    Reports with poor ratings from calendar years 2011-2012 to determine if critical spare
    parts were a contributing factor to the poor health. Gas Operations was not included
    because it does not perform system health reports.

This review was performed in accordance with the Council of the Inspectors General for
Integrity and Efficiency’s Quality Standards for Inspection and Evaluation.

FINDINGS

Our review found that critical spare parts could be managed more effectively. We found
inconsistencies in TVA’s management of its critical spare parts related to (1) procedures
governing critical spare parts, (2) PM performed on parts in the store rooms, and
(3) accuracy of information maintained on critical spare parts. We also found that the lack
of critical spare parts has negatively affected system and/or component health. We noted
that TVA has taken steps to improve the identification of critical spare parts but has not
fully implemented all of the actions. Additionally, our physical inventory counts at the
plants were consistent with the information contained in Maximo.

C&GO Does Not Have an SPP to Govern its Critical Spare Parts Program
While NPG has an SPP to govern its Critical Spares Program, C&GO does not. Each coal
and gas plant uses its own approach to identify and procure its critical spare parts.

NPG-SPP-09.18.10 explains the procedure for identifying high value critical components
(costs greater than or equal to $250,000) and guides the asset owner through an
evaluation process to develop an economic basis for the acquisition of critical spares. The
SPP also provides details on the approach that should be used for critical spare items that
are less than $250,000. NPG-SPP-09.18.10 was developed to improve management of
critical spare parts because individual plant management of critical spares had led to
insufficient spare availability, deferrals of planned refurbishments and overhauls, and an
increase in outage durations when spares were not available.

PM is Not Being Performed on Critical Spares at Certain Plants
C&GO and NPG have SPPs that provide guidance related to PM for parts stored in the
store rooms. Since conducting PM is important for the reliable operation of assets, if
critical spares are not maintained, they may not be in working condition when they are
needed. In both C&GO and NPG SPPs, there is guidance related to the PM of critical
spare parts. Specifically, the SPPs indicate that if PM is required for certain equipment it
should be done. The SPPs also provide more specific guidance for how to handle certain
equipment, such as piping and motors. However, five of the seven plants we visited could
not provide documentation indicating they perform any type of maintenance on critical


                              TVA RESTRICTED INFORMATION
Charles G. Pardee
Page 4
October 17, 2013



spare parts stored in the store rooms. The nuclear plant and one coal plant was able to
provide documentation but none of the gas plants in our sample were able to do so.

Information Maintained on Critical Spares is Unreliable
Based on our interviews and review of items identified as critical spare parts in Maximo,
we determined the information maintained in Maximo regarding critical spares parts is
unreliable. According to Supply Chain personnel, Maximo is used to track and procure the
required inventory of consumable inventory, component inventory, and spare parts in
inventory, including critical spares. Inaccurate data in Maximo could increase the risk that
critical spare parts not marked as critical are not procured and available when needed.

TVA personnel stated there are parts in the store rooms that have (1) not been
appropriately identified as critical and (2) been incorrectly identified as critical. For
example, we identified items, such as personal overalls, office supplies, beakers, lighting
fixtures, wrenches, along with miscellaneous identification tags, plates, and signs that
were identified as critical spare parts in Maximo. According to plant personnel, there is
inconsistency in identifying parts in Maximo, because any user can check a box and
identify any item as a critical spare part. Also, when requisitioning a part, the requester
can identify the part as critical. Requiring the appropriate engineer to identify the criticality
of a part could increase the validity of the information maintained in Maximo.

Lack of Critical Spare Parts Has Negatively Affected System and/or Component
Health
System, program, and component health monitoring provides a method to improve and
maintain equipment performance by identifying (1) shortfalls in equipment or programs,
(2) issues from internal or external operating experience, (3) issues which will affect future
performance of equipment, and (4) opportunities offered by emerging technologies,
benchmarking, or innovations that improve equipment performance. As part of separate
reviews, we found that the lack of critical spare parts has negatively affected system
and/or component health at nuclear and coal plants.
                                                                                                      5
As part of a review of nuclear plant systems, components, and programs with poor ratings,
a random sample of 50 system, component, and program health reports from nuclear
plants with statuses of red or yellow (which indicates poor health) was selected for testing.6
Thirteen of the 50 reports sampled noted issues with critical spare parts as contributing
factors to the poor health ratings. Specifically, 10 of the 34 system health reports, 3 of the
8 component health reports, and none of the 8 program health reports noted issues with
critical spare parts. The 10 system health reports were rated red or yellow for the indicator
titled “Major Component Critical Spares – unavailability of a major component critical spare
to support plant operations.” The three component health reports indicated the need for
transformers and/or motors. The following detailed comments were provided in some of
the reports reviewed:

    A system health report stated there was no critical component spare available for the
     diesel generator exhaust fan motor.
5
    Evaluation 2012-14842 – Actions to Address Nuclear Plant Systems, Components, and Programs With
    Poor Ratings, which is in progress and will be issued at a later date.
6
    NPG defines a red rating as intolerable and a yellow rating as not acceptable.
                                 TVA RESTRICTED INFORMATION
Charles G. Pardee
Page 5
October 17, 2013



    A system health report stated the plant did not have spare parts or replacements for
     many obsolete components in a feedwater system.
    A system health report stated the lack of critical spares for the pump in the motor
     driven auxiliary feedwater trains put Sequoyah Nuclear Plant at risk. Performance
     history has been reliable, but one failure on the right component could put Unit 1
     and/or Unit 2 at risk for shutdown.
    A component health report stated a spare cooling tower transformer is needed
     because if one was lost it could force a unit to derate depending upon environmental
     factors.
    A component health report stated “. . . six critical components do not have a spare
     replacement, including three safety-related motors that if a failure should occur, would
     enter the site into a 72 hour LCO [limited condition of operations] Action and typically
     have a repair and recovery time of one month.”

As part of a review of coal plant systems and programs with poor ratings,7 we also
randomly selected a sample of 50 system and program health reports with statuses of red
or yellow.8 Of the 50 reports in the sample, two system health reports listed critical spare
parts as contributing factors to the poor health ratings. One of the reports indicated a
spare breaker needed to be repaired and the other report stated there was not a spare
transformer readily available onsite.

Steps to Mitigate the Critical Spare Parts Risks Have Not Been Fully Implemented
TVA has recently taken steps to mitigate its risks related to identifying and procuring
critical spare parts. In 2012, Supply Chain established an Equipment Reliability (ER)
group whose vision includes ensuring that the TVA inventory catalog and procedures and
processes will fully support excellence in equipment reliability on a sustainable level. TVA
also hired a contractor to identify critical components in its (CT) fleet in 2011; however, we
were unable to determine what actions TVA has taken based on the contractor’s analysis.

Initially, ER was tasked with aiding NPG in implementing its SPP governing its critical
spare parts. Currently, ER, with the help of PKMJ Technical Services,9 is identifying
(1) NPG’s critical spare parts and the quantities on hand and (2) obsolete parts in
inventory. ER personnel indicated they are working to expand their review of critical spare
parts fleet-wide.

In 2011, TVA signed a contract with MCR for about $200,000 to complete a Failure Modes
and Effects Analysis of TVA’s CT fleet. The Failure Modes and Effects Analysis identified
critical components in TVA’s CT fleet. The critical components identified could be used to
create a critical spare parts list for the CT fleet. As a result of the analysis, MCR
recommended TVA increase the number of critical spare CT components. The contractor
also provided TVA with alternatives related to storing critical spare parts at a centralized

7
    Evaluation 2013-15135 – Actions to Address Coal Plant Systems and Programs With Poor Ratings, which
    is in progress and will be issued at a later date.
8
    Coal Operations defines a yellow rating as needs improvement and a red rating as unsatisfactory.
9
    PKMJ Technical Services is a nuclear consulting organization that provides software and engineering
    solutions.
                                   TVA RESTRICTED INFORMATION
Charles G. Pardee
Page 6
October 17, 2013



location. However, we were unable to determine what actions TVA has taken based on
the information provided by MCR. During our interviews, plant personnel indicated they
were not aware of (1) the review or (2) any actions TVA has taken since the analysis was
completed.

Inventory Count of Identified Critical Spare Parts was Accurate
We conducted a physical inventory of critical spare parts identified in Maximo. We located
and counted the critical spare parts and the appropriate quantities selected in our random
sample. In all but two instances, our physical count matched the information contained in
Maximo. The figure below shows the number of inventory items included in our sample
for each plant and the number of items whose quantities did not match the information in
Maximo.

                 Figure 1: Random Samples of Inventory Kept By Plant
                                      Critical Spares      Inaccurate Inventory
                    Plant
                                         Sampled                Quantities
                                             87                     0
            Allen Fossil Plant

                                             95                      0
           Gallatin Fossil Plant

           Bull Run Fossil Plant             95                      2

                                             67                      0
              Allen CT Plant
           Caledonia Combined                                        0
                                             77
               Cycle Plant
            Gallatin CT Plant                75                      0

         Watts Bar Nuclear Plant                                     0
                                             98
                 Unit 1

Although the inventory counts at the plants were consistent, except two instances, with the
information contained in Maximo, the items sampled may or may not have been critical
spares because (as discussed above) the critical spare parts information in Maximo was
unreliable.

RECOMMENDATIONS

We recommend the Executive Vice President and Chief Generation Officer, Generation:

   Develop C&GO procedures to govern the identification and procurement of critical
    spare parts.
   Ensure proper maintenance is performed on spare parts.
   Take steps to follow-up on actions recommended by MCR.




                               TVA RESTRICTED INFORMATION
Charles G. Pardee
Page 7
October 17, 2013



   Work with Engineering Environmental & Support Services to implement controls over
    the information maintained in Maximo, including who can identify what are critical
    spare parts.
   Work with Supply Chain to accurately update Maximo to reflect what items should be
    listed as critical spare parts.

TVA Management’s Comments – TVA management agreed with the findings and
recommendations in the report. Management provided additional information regarding
NPG’s management of critical spare parts. See the Appendices for TVA’s complete
response.

Auditor’s Response – The Office of the Inspector General concurs with TVA
management’s planned actions.

                       -       -       -     -      -       -

This report is for your review and final action. Your written comments, which addressed
your management decision and planned actions, have been included in the report. Please
notify us within one year from the date of this memorandum when final action is complete.

Information contained in this report may be subject to public disclosure. Please advise us
of any sensitive information in this report that you recommend be withheld. If you have
any questions or need additional information, please contact me at (865) 633-7450 or
Gregory R. Stinson, Director, Evaluations, at (865) 633-7367. We appreciate the courtesy
and cooperation received from your staff during the evaluation.




Robert E. Martin
Assistant Inspector General
 (Audits and Evaluations)
ET 3C-K

EDW:HAC
cc: James R. Dalrymple, LP 3K-C
    Joseph P. Grimes, Jr., LP 3R-C
    Peyton T. Hairston, Jr., WT 7B-K
    William D. Johnson, WT 7B-K
    Dwain K. Lanier, MR 3K-C
    Justin C. Maierhofer, WT 7B-K
    Richard W. Moore, ET 4C-K
    Andrea L. Williams, WT 9B-K
    OIG File No. 2012-14587




                              TVA RESTRICTED INFORMATION
                             APPENDIX A
                              Page 1 of 3




TVA RESTRICTED INFORMATION
                             APPENDIX A
                              Page 2 of 3




TVA RESTRICTED INFORMATION
                             APPENDIX A
                              Page 3 of 3




TVA RESTRICTED INFORMATION
                             APPENDIX B
                              Page 1 of 2




TVA RESTRICTED INFORMATION
                             APPENDIX B
                              Page 2 of 2




TVA RESTRICTED INFORMATION
